PENSION BENEFIT GUARANTY CORPORATION




 SEMIANNUAL REPORT
  TO THE CONGRESS




 OFFICE OF INSPECTOR GENERAL


      OCTOBER 1, 2000 - MARCH 31, 2001
                                                                         Office of Inspector General

                                                                                April 30, 2001



The Honorable Elaine L. Chao
Chairman, PBGC Board of Directors

       It is my pleasure to submit this twenty-fourth Semiannual Report to the Congress.
This report summarizes the major activities and accomplishments of the Pension Benefit
Guaranty Corporation (PBGC or Corporation) Office of Inspector General (OIG) for the six-
month period ending March 31, 2001. Our accomplishments were made possible by the
dedicated efforts of a committed and professional staff.

        Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued eleven (11) reports in the audit area, including the
audit of PBGC’s financial statements for 2000 and 1999; an evaluation of security for the
Unix system that supports PBGC’s Performance Accounting System; a review of the system
controls for an automated participant records system (PRISM); and a test of the controls
related to automated pension benefit payments. We are also reporting that the reportable
condition related to computer systems security was removed from the Report on Internal
Control in this year’s financial statement audit.

         In the investigative area, we opened nine (9) and closed twelve (12) investigations.
Of the investigations we closed this period, the most significant cases include findings that:
a former senior level employee engaged in multiple abuses relating to government travel, a
contract employee was not removed in retaliation for whistleblowing, and a contracting
officer’s technical representative misused contractor employees. In addition, we closed two
(2) cases involving pension fraud.

        To accomplish our work, I seek to maintain productive professional working
relationships with PBGC’s Acting Executive Director, managers, employees, and the
Congress. I look forward to continuing these relationships, as the OIG strives to maintain
the highest levels of integrity and quality in the Corporation's programs and operations,
and help PBGC meet its important challenges.


                                             Sincerely,




                                             Wayne Robert Poll
                                             Inspector General
Enclosure
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                          PENSION    BENEFIT     GUARANTY
CORPORATION




EXECUTIVE SUMMARY


This is the twenty-fourth semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period October 1, 2000 through March 31, 2001. Our efforts were
directed toward performing audits, inspections, and evaluations of the Corporation's programs
and operations; conducting several large and complex investigations; and providing technical
assistance and advice on Corporate programs.

In the audit area, we issued eleven (11) reports, including:

   •	   Evaluation of the Unix security for PBGC’s Performance Accounting System
        (see page 2);
   •    Evaluation of PBGC’s Premium Compliance Program (see page 2);
   •    Review of the PRISM system controls (see page 3 );
   •	   Test of the controls related to automated pension benefit payments (see page 4);
        and
   •    Audit of PBGC’s Financial Statements (see pages 4 and 5).

During the audit of PBGC’s financial statements, the auditors determined that PBGC made
significant progress on the reportable condition dealing with computer systems security, and
this was removed from the Report on Internal Control (see page 5).

In the investigative area, we opened nine (9) new investigative cases during the reporting
period and closed twelve (12) cases. Among the most significant cases closed this period we
found:

   •    A former senior-level employee engaged in travel abuse (see page 11);
   •	   A contract employee’s termination was not in retaliation for whistleblowing (see
        page 11); and
   •	   A COTR was found to have acted unprofessionally with regard to contractor
        employees and used them for work not covered in the contract (see page 11).

In addition, we continue to vigorously pursue cases of pension fraud. During this period, we
closed two (2) fraud cases relating to receipt of pension benefits (see page 11).

During the period, we reviewed regulations that codify PBGC’s policies concerning assessment
and waiver of premium penalties, reported to Congress on PBGC’s payment of water and sewer
to the District of Columbia Government, and participated in several Corporate initiatives to
improve PBGC.




MARCH 2001
                                                 i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                            PENSION        BENEFIT     GUARANTY
CORPORATION




TABLE OF CONTENTS

               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY .................................................................                i

               TABLE OF CONTENTS ....................................................................             ii

               LIST OF TABLES.............................................................................        iii

               INTRODUCTION ..............................................................................        1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ........................................................................          2

                         Overview

                         Audits and Evaluations 

                         Audit Follow-up and Resolution 

                         Access to Information 

                         PBGC Management - Inspector General Disagreements


               INVESTIGATORY ACTIVITIES .......................................................                   10

                         Overview

                         Activity This Period

                         Significant Investigations                   


               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                         13

                         Review of Proposed Statutory and Regulatory Changes 

                         Reports to Congress 

                         OIG and Agency Consultation 

                         Liaison With the United States General Accounting Office


               GLOSSARY ......................................................................................    15




MARCH 2001
                                                            ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                            PENSION    BENEFIT      GUARANTY
CORPORATION




LIST OF TABLES


       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS .....................................        7


       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS .............................            8


       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS 

                   THAT FUNDS BE PUT TO BETTER USE .....................................       9


       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS .................................        12


       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS

                   OF THE INSPECTOR GENERAL ACT ...........................................    14





MARCH 2001
                                                 iii 

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INTRODUCTION 

THE PENSION BENEFIT GUARANTY CORPORATION

       The Pension Benefit Guaranty Corporation (PBGC or Corporation) was
       established under Title IV of the Employee Retirement Income Security Act of
       1974 (ERISA), as amended, 5 U.S.C. § 1301-1461, as a self-financing, wholly
       owned federal government corporation to administer the pension insurance
       program. ERISA requires that PBGC (1) encourage the continuation and
       maintenance of voluntary private pension plans; (2) provide for the timely and
       uninterrupted payment of pension benefits to participants and beneficiaries; and
       (3) maintain premiums at the lowest level consistent with carrying out PBGC's
       obligations.

       For about 43 million Americans, the PBGC provides assurance that their
       retirement benefits are safe now and for the future. The PBGC protects the
       pensions of participants in certain defined benefit pension plans, i.e., plans that
       promise to pay definitely determinable retirement benefits. Such defined benefit
       pension plans may be sponsored individually or jointly by employers and by
       unions. Currently, there are approximately 226,700 participants receiving
       benefit payments from PBGC. Additionally, in its fiscal year 2000 financial
       statement, the PBGC reported that it has assets of about $21.4 billion and
       liabilities of $11.4 billion.


THE OFFICE OF INSPECTOR GENERAL

       One of the strategic goals of the Office of Inspector General (OIG) is to assist the
       PBGC in operating more efficiently and effectively by identifying ways to improve
       PBGC's programs. To accomplish this goal, the OIG conducts agency audits,
       inspections, and investigations, and makes recommendations to PBGC
       management. In addition, the OIG is required statutorily to inform the agency
       head of fraud and other serious problems, abuses, and deficiencies relating to
       the programs and operations administered or financed by the PBGC,
       recommend corrective action concerning such problems, and report on the
       progress made in implementing corrective actions.

       The OIG staff consists of twelve (12) employees, of which two are investigators.
       In addition, we are in the process of hiring an information technology auditor.

       The Chief Financial Officers Act requires that a government corporation's
       financial statements be audited by the Inspector General, unless preempted by
       the General Accounting Office (GAO). The OIG contracted with an Independent
       Public Accountant (IPA) to perform the audit of the Corporation’s FY 2000
       financial statements.




MARCH 2001                                                             PAGE 1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




AUDIT ACTIVITIES 

OVERVIEW

       The OIG provides independent analyses to management on a full range of
       PBGC's operations including programs, activities, functions, and funding. The
       OIG has full discretion in establishing audit objectives, plans, and priorities.
       During this reporting period, the OIG issued eleven (11) reports (see TABLE 1) to
       help PBGC reduce costs and strengthen management controls. Below is a
       summary of the most significant of those reports. Our audits comply with
       GAO’s Government Auditing Standards, while the inspections comply with
       Quality Standards For Inspections published by the President's Council on
       Integrity and Efficiency.


AUDITS AND EVALUATIONS

       EVALUATION OF UNIX SECURITY FOR PBGC’s
       PERFORMANCE ACCOUNTING SYSTEM
       (2001-1/23149-5)

       The OIG contracted with a team from the Technology Risk Services practice of
       PricewaterhouseCoopers, LLP to perform a security review of the UNIX server
       that hosts the Corporation’s Performance Accounting System. The review
       evaluated the security controls to determine whether only those with
       authorization had access to the sensitive information in the Performance
       Accounting System. A team specializing in UNIX technical controls conducted a
       risk-based review of the UNIX server. Since the report contains sensitive
       information, its release is restricted.

       EVALUATION OF THE PREMIUM COMPLIANCE 

       REVIEW PROGRAM 

       (2001-2/23142) 


       ERISA requires plan sponsors of participating defined benefit pension plans to
       obtain insurance from PBGC to insure against pension plan failure. Pension plans
       calculate their premiums in accordance with PBGC instructions, file their forms,
       and pay their premiums by a specified due date. The Premium Compliance Review
       (PCR) program was established to audit pension plans' compliance with premium
       payment requirements. PBGC hires contractors to perform PCR work.

       We reviewed contractor work for compliance with the PCR procedures, contract
       terms, and professional audit standards. We found that some contractors’ work did
       not fully meet professional audit standards, was of poor quality, and in some
       instances was incomplete. We also found that some contractor employees did not
       meet the experience qualifications of the contract. We noted inconsistent contract
       monitoring contributed to the contractors’ performance issues and may have
       resulted in excess contract costs.

       Finally, we found PBGC continued to issue manually prepared Statements of
       Account (SOA). Once a PCR is completed, PBGC issues an SOA to the plan which


MARCH 2001                                                           PAGE 2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



       presents the premium calculation, interest, and penalties for late payments;
       deducts amounts already paid; and tabulates the amount due. This practice of
       issuing manual SOAs is not in compliance with PBGC’s policy and adds significant
       risk to the safeguarding of assets.
       AGENCY COLLECTION OF CERTAIN
       INFORMATION FROM INDIVIDUALS
       (2001-5/23155)

       Under § 646 of the Treasury and General Government Appropriation Act of 2001
       (enacted as part of the Consolidated Appropriations Act, 2001, Pub. L. 106-554),
       the OIG is required to report to Congress regarding PBGC’s collection of certain
       personally identifying information from individuals, commonly called “cookies,”
       who access its Internet site. We reviewed the PBGC website, conducted
       interviews, and obtained representations from management. We determined
       that:

       • 	 PBGC has not in the past collected or reviewed any singular data, or created
           any aggregate lists, that include personally identifiable information about
           individuals who accessed Internet sites operated by PBGC.

       • 	 PBGC has not in the past entered into any agreements with third parties,
           including other government agencies, to collect, review, or obtain aggregate
           lists or singular data containing personally identifiable information relating
           to any individual’s access or viewing habits for governmental or
           nongovernmental Internet sites.

       •   PBGC is not currently collecting or reviewing any such data, creating any
           aggregate lists, or entering into agreements with third parties to do so, nor is
           PBGC planning to do so in the future.

       REVIEW OF PRISM SYSTEM CONTROL 

       STRUCTURE RECORDED IN TRANSACTION 

       FLOW NARRATIVES 

       (2001-6/23146-1)


       The OIG updated its understanding of the Participant Records Information
       Systems Management (PRISM) system. PRISM is an integrated information
       system developed to support PBGC’s Insurance Operations Department (IOD) in
       administering pension plan customers. The PRISM system enhances the
       current IOD environment by automating previous manual efforts and replacing
       existing automated systems. PRISM also provides an automated interface to
       State Street Bank (SSB), which is the PBGC paying agent, by sending payment
       request information to SSB and retrieving actual payment information from
       SSB. The purpose of the review was to document the flow of transactions
       through PRISM and to identify and document controls in the benefit payment
       process. The OIG engaged an IPA to assist in our update.

       We reviewed each application within PRISM and identified weaknesses and
       assessed the related risks. Based upon the information obtained through
       inquiries, observations, review of system documentation, and representations
       made by PBGC, we identified opportunities to enhance its current control and
       processing environment and made suggestions for improvement. Because this
       report contains sensitive data, its release is restricted.




MARCH 2001                                                             PAGE 3
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



       A TEST OF CONTROLS ASSOCIATED WITH
       THE GENERATION OF BENEFIT PAYMENTS
       (2001-7/23146-2)

       During FY 1999, we performed a network security penetration assessment (OIG
       Report 2000-3/23137-2) to determine the extent to which some could obtain
       unauthorized access to PBGC’s systems through external or internal sources.
       Weaknesses in access controls over PBGC systems included the IPA’s ability to
       gain administrator access to the PRISM system. In response to the reported
       findings, PBGC stated that the benefit payment process was not at risk because
       the controls within PRISM would prevent creation of unauthorized benefit
       payments.

       To test PBGC’s assertions, the OIG engaged an IPA and a technology expert to
       assist in evaluating the effectiveness of PRISM’s controls surrounding benefit
       payments. The team developed specific and realistic scenarios that would test
       controls to determine whether unauthorized benefit payments could be made.
       The scenarios were tested in both OIG and PBGC computer test labs, and
       consisted of the following types of transactions:

       • Diverting benefit payments to a controlled and unauthorized destination;

       • Modifying benefit payment amounts;

       • Adding unauthorized customers to an established plan;

       • Changing a participant’s benefit payment information in PRISM;

       • Modifying files used to communicate with PBGC’s paying agent; and

       • Circumventing the authorization process.

       Our PRISM evaluation identified system vulnerabilities and determined that
       certain types of unauthorized payments could be generated. We identified
       control weaknesses and suggested that PBGC enhance access controls by
       implementing formal auditing, monitoring, reviewing, and logging procedures for
       system actions impacting on benefit payments. In addition to the written report,
       we provided a live demonstration of the vulnerabilities.

       Because this report contains sensitive information, its release is restricted.

       AUDIT OF THE PENSION BENEFIT
       GUARANTY CORPORATION’S FISCAL YEARS
       2000 AND 1999 FINANCIAL STATEMENTS
       (2001-8/23149-1 and 2001-9/23149-2)

       The OIG engaged PricewaterhouseCoopers, LLP (PwC) to conduct an audit of
       PBGC’s financial statements of the Single-Employer Program Fund and the
       Multiemployer Program Fund for the fiscal years (FY) ended September 30, 2000
       and September 30, 1999. The audit was performed under the direction and
       general supervision of the OIG and resulted in three reports.

       •   An unqualified opinion report was issued on the financial statements which
           opines that the financial statements fairly present, in all material respects:
           (1) the financial position of the Single-Employer Program and Multiemployer


MARCH 2001                                                             PAGE 4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



            Program Funds as of September 30, 2000 and 1999, and (2) the results of
            their operations and cash flows for the years then ended in conformity with
            generally accepted accounting principles.

       •	   This year, one reportable condition dealing with computer systems security
            was removed from the report on internal control because PBGC made
            significant progress in this area. Three reportable conditions from prior
            semiannual periods remain. PBGC needs to: (1) integrate its financial
            management systems and improve its systems development life cycle
            methodology; (2) improve its plan for maintaining continuity of operations;
            and (3) further improve controls surrounding the PRISM application.

       •	   The report on compliance with applicable laws and regulations indicates
            that, with respect to items tested, no instance of non-compliance was
            disclosed. However, one matter of emphasis was noted which the Office of
            Inspector General believes requires further review.

       The OIG issued a report with these three opinions (OIG Report 2001-9/23149-
       2). In addition, the OIG issued a single page report that PBGC incorporated into
       its FY 2000 Annual Report (OIG Report 2001-8/23149-1).

       INDEPENDENT ACCOUNTANT’S REPORT ON APPLYING
       AGREED-UPON PROCEDURES FOR FACTS DATA
       (2001-11/23149-3)

       GAO requested that the OIG perform specific procedures enumerated by the
       U.S. Treasury related to PBGC’s submission of its Federal Agencies Centralized
       Trial-Balance Systems (FACTS) transmission, which included the Adjusted Trial
       Balance for the revolving and trust funds and selected footnote data. These
       procedures are performed to assist in the preparation of the consolidated United
       States Government financial statements for the year ended September 30, 2000.



AUDIT FOLLOW-UP AND RESOLUTION

       The audit follow-up system at PBGC is integral to effective management and is a
       shared responsibility of PBGC management and the OIG.             The OIG has
       established an audit follow-up system to document management's actions and
       assure prompt resolution of audit recommendations. Moreover, this OIG system
       provides for a record of actions taken by PBGC management on OIG and GAO
       recommendations.

       The Office of Management and Budget (OMB) Circular A-50 requires that audit
       recommendations be resolved within six (6) months of issuance. The OMB
       guidance provides that audit recommendations are resolved when agency
       management and the OIG reach agreement on firm plans of action to correct
       reported weaknesses.       Resolution, however, does not mean an audit
       recommendation is closed. The OIG closes audit recommendations only when
       corrective actions have been completed by the agency.

       In our Semiannual Listing of Audit Recommendations (OIG Report 2001-3/32099)
       we reported that there were one hundred (100) open audit recommendations, of
       which seventy-eight (78) were outstanding audit recommendations from prior
       reporting periods.   From the agency’s review and reporting to the OIG,


MARCH 2001                                                          PAGE 5
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



       management represented that appropriate action had been taken to close thirty-
       seven (37) audit recommendations, and the OIG concurred. We reported that
       sixty-three (63) audit recommendations remained open on March 31, 2001
       (Semiannual Report on Follow-up of Audit Recommendations, OIG Report 2001-
       12/32100).




MARCH 2001                                                         PAGE 6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



ACCESS TO INFORMATION

       Under the Inspectors General Act, the Inspector General is to have unfettered
       access to all agency records, information, or assistance when engaged in an
       investigation or audit. Whenever access to requested records, information, or
       assistance is unreasonably refused or not provided, the Inspector General must
       promptly report the denial to the agency head. During this six-month reporting
       period, the Inspector General’s access to information was not restricted.



PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS

       Semiannually, the OIG reports on the status of all unresolved audit reports that
       are more than six months old.        These reports include: (1) reason(s) for
       unresolved reports and a timetable for their resolution; (2) actions taken or
       proposed on all unresolved reports or recommendations; and (3) age of
       unresolved recommendations.       For this reporting period, there were no
       unresolved audit reports in which PBGC management decisions are pending.
       However, in a prior period, PBGC disagreed with a recommendation contained in
       the Fiscal Year 1998 Financial Statement – Management Letter (99-8/23132-3).
       PBGC management commented on the Report and concurred “with its
       recommendations except for one item.” PBGC disagreed with a recommendation
       which states that PBGC should “modify existing Insurance Operations
       Department (IOD) procedures to require retention of source documentation
       generated as a result of the participant data audits and used to calculate benefit
       payments and value the PVFB [Present Value of Future Benefits] liability.”

       The OIG feels strongly that in order for PBGC to adequately manage its program
       and to ensure the proper calculation of each participant’s guaranteed benefit, it
       is imperative that supporting documentation for all critical data elements be
       collected and retained. During this reporting period, PBGC sought and received
       permission from to the National Archives and Records Administration to destroy
       paper copies of source documentation from participants and plan sponsors that
       is imaged in the Imaged Processing System (IPS). The OIG has noted its concern
       about this destruction of paper records.

       The OIG is finalizing a report on its analysis of the data elements that are
       necessary to calculate guaranteed benefits and, thus, require supporting source
       documentation. This analysis is now impacted by management’s decision to
       destroy source documentation and rely on IPS. We will provide PBGC
       management with our analysis when it is complete. We will continue to work
       with PBGC management to resolve this disagreement.




MARCH 2001                                                            PAGE 7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




                                           TABLE 1

                       INSPECTOR GENERAL ISSUED REPORTS
                          For The Six-month Period Ending
                                  MARCH 31, 2001

                                                       DOLLAR       DOLLAR          DOLLAR
                                                      VALUE OF     VALUE OF        VALUE OF
 REPORT                                    DATE      QUESTIONED     BETTER        UNSUPPORTED
 NUMBER           REPORT TITLE            ISSUED       COSTS      USED FUNDS         COSTS

Audits

2001-8/    Audit of Pension Benefit       3/6/01         -0-           -0-            -0-
23149-1    Guaranty Corporation
           Fiscal Years 2000 and
           1999 (Single Page Report)
2001-9/    Audit of Pension Benefit       3/29/01        -0-           -0-            -0-
23149-2    Guaranty Corporation
           Fiscal Years 2000 and
           1999

Evaluations

2001-1/    Evaluation of UNIX Security     3/9/01         -0-           -0-           -0-
23149-5    for PBGC’s Performance
           Accounting System
2001-2/    Evaluation of the Premium      1/24/01         -0-           -0-           -0-
23142      Compliance Review Program
2001-3/    Semiannual Listing of Audit    1/31/01         -0-           -0-           -0-
32099      Recommendations
2001-4 	   Inspector General’s Report     1/31/01         -0-           -0-           -0-
           of Water/Sewer Payments to
           the DC Water and Sewer
           Authority
2001-5/    Agency Collection of Certain   2/13/01         -0-           -0-           -0-
23155      Information from Individuals
           (Cookies)
2001-6/    Review of PRISM System         3/7/01          -0-           -0-           -0-
23146-1    Control Structure Recorded
           in Transaction Flow
           Narratives
2001-7/    A Test of Controls             3/30/01         -0-           -0-           -0-
23146-2    Associated with the
           Generation of Benefit
           Payments
2001-11/   Independent Accountant's       3/6/01          -0-           -0-           -0-
23149-3    Report on Applying Agreed-
           Upon Procedures
           for FACTS Data
2001-12/   Semiannual Report on           3/31/01         -0-           -0-           -0-
32100      Follow-up on Audit
           Recommendations




MARCH 2001                                                               PAGE 8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                 PENSION BENEFIT GUARANTY CORPORATION




                                                    TABLE 2       *


                          REPORTS ISSUED WITH QUESTIONED COSTS 

                              For The Six-month Period Ending

                                      MARCH 31, 2001 



                                                                 NUMBER
                                                                      OF          QUESTIONED        UNSUPPORTED
                                                                REPORTS             COSTS              COSTS

 A.    For which no management decision has
       been made by the commencement of the
       reporting period                                               0                 -0-             -0-

 B.    Which were issued during the reporting
       period                                                         0                 -0-             -0-

       Subtotal ( Add A & B)                                          0                 -0-             -0-

 C. 	 For which a management decision was
      made during the reporting period                                0                 -0-             -0-

       (i)       dollar value of disallowed costs                     0                 -0-             -0

       (ii) 	    dollar value of costs not
                 disallowed                                           0                 -0-             - 0-

 D.    For which no management decision has
       been made by the end of the reporting
       period                                                         0                 -0-             -0-

 E.    Reports for which no management
       decision was made within six months of
       issuance                                                       0                 -0-             -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 2001                                                                                     PAGE 9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                              PENSION BENEFIT GUARANTY CORPORATION




                                                    TABLE 3       *


                          REPORTS ISSUED WITH RECOMMENDATIONS 

                             THAT FUNDS BE PUT TO BETTER USE 

                               For The Six-month Period Ending

                                       MARCH 31, 2001 



                                                                                     NUMBER
                                                                                        OF               DOLLAR
                                                                                    REPORTS              VALUE

 A.    For which no management decision has been made by the
       commencement of the reporting period                                              0                -0-

 B.    Which were issued during the reporting period                                     0                -0-

       Subtotal ( Add A & B)                                                             0                -0-

 C. 	 For which a management decision was made during the
      reporting period                                                                   0                -0-

       (i)         dollar value of recommendations that were agreed
                   to by management                                                      0                -0-

              --   based on proposed management action                                   0                -0-

              --   based on proposed legislative action                                  0                -0-

       (ii)        dollar value of recommendations that were not
                   agreed to by management                                               0                -0-

 D.    For which no management decision has been made by the
       end of the reporting period                                                       0                -0-

       Reports for which no management decision was made
       within six months of issuance                                                     0                -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 2001                                                                                     PAGE 10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES 

OVERVIEW
       The Inspector General is authorized to receive and investigate complaints from
       PBGC employees, the public, and other sources concerning violations of law,
       rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
       a substantial and specific danger to the public health and safety. Individuals
       may disclose information or make complaints to the Inspector General through
       the OIG "Hotline." (See announcement on back cover page.) The Inspector
       General has a policy to protect the legal rights of whistleblowers and
       complainants. At all times, the Inspector General takes reasonable precautions
       not to disclose the identity of the complainant without that person's consent.

       When we receive an allegation, we review it to determine its sensitivity and need
       for immediate OIG investigation, or whether it can be referred to the agency for
       review and corrective action. Allegations designated as priority, e.g., those
       involving criminal violations and sensitive administrative matters, receive
       immediate attention. These investigations use more time and resources, often
       requiring a team approach. To meet these challenges, the OIG has undertaken
       many strategies to responsibly investigate allegations that are brought to us,
       including hiring former federal investigators as contractors. Even with these
       additional contract resources, we have had to cease investigation activities and
       close some cases administratively. Though we have systematically reduced our
       investigative caseload, our limited investigative staff causes an inability to
       investigate allegations timely, which is unacceptable to us.

ACTIVITY THIS PERIOD
       The OIG received nine (9) complaints or allegations, and closed twelve (12)
       investigative cases during the reporting period. As of March 31, 2001, forty (40)
       cases remain open (see Table 4 for investigative program statistics).

       OIG HOTLINE
       The OIG operates a separate "1-800" hotline telephone number and a post office
       box. The Hotline telephone is answered by an investigative staff assistant for a
       two-hour period, Monday through Friday; at all other times there is a message
       that provides information about the Hotline service.

       For the period October 1, 2001 through March 31, 2001, we received a total of
       nine (9) Hotline inquiries. Six of the nine contacts were first-time inquiries
       relating to pension benefit questions, which were referred to the agency for
       action. The OIG provided customer assistance to three (3) callers. We did not
       open     any    cases     from    our   Hotline    contacts     this   period.




MARCH 2001                                                           PAGE 11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       SIGNIFICANT INVESTIGATIONS

       TRAVEL IMPROPRIETIES

       Upon investigation, we found that a senior level employee abused official travel,
       engaged in a pattern of false statements and false claims on the employee’s
       travel vouchers, and accepted gratuities from prohibited sources while on travel.
       Because the offenses involved violations of criminal statutes, this matter was
       referred to the District of Columbia Office of the United States Attorney for
       possible prosecution. Once the United States Attorney’s Office determined that
       the evidence did not support a finding of bribery in violation of 18 U.S.C. § 201,
       it declined other criminal prosecution in lieu of administrative action, and the
       case was referred back to the OIG for further investigation of the multiple ethics
       and travel violations. Though the employee terminated employment with this
       agency during the course of the investigation, the employee was still a
       government employee. Therefore, we issued a Report of Investigation to agency
       officials to recoup monies owed the federal government, and a copy was sent to
       the Inspector General at the employee’s current federal agency.

       WHISTLEBLOWER RETALIATION

       A contractor employee employed at one of PBGC’s contracted Field Benefit
       Administrators (FBA), contacted a PBGC Executive and alleged that the
       employee was terminated in retaliation for communications with certain PBGC
       Executives. This matter was referred to our office. Section 265 of 41 U.S.C.
       gives the OIG limited authority to investigate whistleblower complaints from
       employees of PBGC’s contractors. We found that the weight of the evidence did
       not support the contract employee’s allegation of termination for whistleblowing
       and that the contractor demonstrated the employee had been removed for cause.
       We issued a report of findings to the complainant, the designated head of our
       agency, and the FBA’s legal counsel.

       PENSION FRAUD CASES

       During this period, we closed two (2) cases involving alleged fraud in pension
       benefits issued by PBGC. A plan participant alleged that he had not received a
       lump sum pension check that PBGC issued several years ago, and requested
       payment. Upon investigation, we found that the check had been cashed. We
       issued a subpoena for the participant’s bank records, determined that he had
       received the pension check, and notified the agency not to re-issue the check.

       In another case, we determined that the pension plan participant had filed a
       forged waiver of spousal retirement benefits. In this case, the husband forged
       his wife’s signature on a document that gave up her right to any future
       retirement benefits. Upon determination of the fraud, we referred the matter to
       the agency to correct the records regarding the wife’s entitlement to a spousal
       benefit.

       ABUSE AND MISUSE OF CONTRACT EMPLOYEES

       We received allegations that a Contracting Officer’s Technical Representative
       (COTR) communicated, orally and in writing, in an abusive and unprofessional
       manner with contractors, and was using them for work not covered in the



MARCH 2001                                                            PAGE 12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL         PENSION BENEFIT GUARANTY CORPORATION



       contract. We found the allegations were substantiated, and referred the matter
       to the agency for corrective action.




MARCH 2001                                                         PAGE 13 

SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                               PENSION BENEFIT GUARANTY CORPORATION




                                                      TABLE 4

                            STATISTICAL TABLES OF INVESTIGATIONS

                                For The Six-month Period Ending

                                        MARCH 31, 2001 



CASE LOAD

                    Pending beginning of period                                                    43
                    Opened this period**                                                            9
                    Closed this period                                                             12
                    Pending end of period ***                                                      40


WRONGDOING ALLEGED (CASES OPENED)

                    Fraud, Waste & Abuse                                                            2
                    Wrongdoing                                                                      3
                    Improprieties Relating to Pension Benefits                                      3
                    Proactive                                                                       1


RESULTS OF CASES CLOSED

                    Allegation disproved or not substantiated                                       3
                    Referred to agency for corrective action                                        4
                    Fraudulent Waiver of Spousal Pension Benefits                                   1
                    Prosecutions & Civil Settlements                                                1
                    Prosecution declined; referred to agency for                                    1
                        disciplinary action & monetary recovery
                    Administrative Closings                                                         2


HOTLINE AND MAIL INQUIRIES

                    Received this period                                                            9

                              First time caller referrals to agency                       6
                              Mail referrals to agency                                    0
                              OIG Customer Assistance                                     3
                              Cases opened                                                0




** Of the nine new cases opened this period, none resulted from Hotline and mail inquiries.
*** Twenty-six of the forty investigative cases that are open are from prior reporting periods.


MARCH 2001                                                                                        PAGE 14
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




OTHER OFFICE OF INSPECTOR
GENERAL ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

       To comply with the IG Act, the OIG Legal Counsel is notified by the Office of the
       General Counsel when the agency is proposing legislative and regulatory
       changes. During this period, the agency proposed regulations to codify policies
       concerning assessment and waiver of premium penalties. We provided written
       comments and also met with the Office of the General Counsel.

       In addition, as part of the OIG community, we provided periodic comments on
       proposed bills currently before Congress, including amendments to the IG Act.

REPORTS TO CONGRESS

       Through the 2001 Omnibus Appropriations legislation, Congress amended the
       District of Columbia Code to require Inspectors General to report on their
       agencies’ prompt payment of amounts owed to the District of Columbia
       government for water and sewer services. We informed the Chairman of the
       Committee on Appropriations for the US Senate that, since the PBGC leases
       office space from a private company, we do not fall within the statutory reporting
       requirement (OIG Report 2001-4).

OIG AND AGENCY CONSULTATION

       The OIG engaged in several activities this period that included coordination and
       consultation with agency officials to improve agency operations.

       •	   As a result of participating as a mentor in the agency’s Mentoring Program,
            the Deputy Inspector General is participating on a team working on
            knowledge management initiatives. One initiative is to develop PBGC “Yellow
            Pages,” an electronic database that identifies knowledge, skills and abilities
            of employees, and provides certain background and locator information
            about them.

       •	   We continue to work with PBGC officials to reinforce referrals to the OIG of
            fraudulent pension payments.

       •	   We continue to participate in a PBGC multi-departmental team that
            formulated and implemented an Information Security Corrective Action Plan
            based on the results of our penetration testing. Congress requested that the
            Plan be completed by September 30, 2000. Congress asked us to monitor
            and report on the progress of implementation of the corrective actions.


LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE


MARCH 2001                                                             PAGE 15
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL               PENSION BENEFIT GUARANTY CORPORATION




        The OIG maintains close liaison with GAO. There was no GAO activity during
        the reporting period.
                                        TABLE 5

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.



  Inspector General
    Act Reference      Reporting Requirements                                        Page


Section 4 (a) (2)      Review of legislation and regulations.                         13

Section 5 (a) (1)      Significant problems, abuses, and deficiencies.               2 – 5,
                                                                                      11

Section 5 (a) (2)      Recommendations with respect to significant problems,         2 – 5,
                       abuses, and deficiencies.                                      11

Section 5 (a) (3)      Prior significant recommendations on which corrective           5
                       actions has not been completed.

Section 5 (a) (4)      Matters referred to prosecutive authorities.                   12

Section 5 (a) (5)      Summary of instances where information was refused.             6


Section 5 (a) (6)      List of audit reports by subject matter, showing dollar         7
                       value of questioned costs and funds put to better use.


Section 5 (a) (7)      Summary of each particularly significant report.              2 – 5,
                                                                                      11

Section 5 (a) (8)      Statistical table showing number of reports and dollar          8
                       value of questioned costs.

Section 5 (a) (9)      Statistical table showing number of reports and dollar          9
                       value of recommendations that funds be put to better
                       use.

Section 5 (a) (10)     Summary of each audit issued before this reporting            None
                       period for which no management decision was made by
                       end of reporting period.

Section 5 (a) (11)     Significant revised management decisions.                     None

Section 5 (a) (12)     Significant management decisions with which the                 6
                       Inspector General disagrees.




MARCH 2001                                                                 PAGE 16
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY 

The following defines the terms used in this report.


Questioned Cost 	      A cost the OIG has questioned because of an alleged
                       violation of law, regulations, contract, grant, cooperative
                       agreement, or other agreement or document governing the
                       expenditure of funds; such cost is not supported by
                       adequate documentation; or the expenditure of funds for the
                       intended purpose is unnecessary or unreasonable.

Unsupported Cost	      A cost the OIG has questioned because of a lack of adequate
                       documentation at time of the audit.

Disallowed Cost 	      A questioned cost that management, in a management
                       decision, has sustained or agreed should not be charged to
                       the government.

Funds To Be Put To Funds the OIG has identified in an audit recommendation
Better Use	        that could be used more efficiently by reducing outlays,
                   deobligating program or operational funds, avoiding
                   unnecessary expenditures, or taking other efficiency
                   measures.

Management             Management's evaluation of audit findings and
Decision               recommendations and issuance of a final decision
                       concerning management's response to such findings and
                       recommendations.

Final Action	          The completion of all management actions -- that are
                       described in a management decision -- with respect to audit
                       findings and recommendations. If management concluded
                       no actions were necessary, final action occurs when a
                       management decision is issued.


Misconduct	            Action of employees or contractors that violates law, rules,
                       or regulations for which corrective action is warranted.




MARCH 2001                                                             PAGE 17
IF   YOU WANT TO REPORT OR DISCUSS CONFIDENTIALLY
ANY INSTANCE OF MISCONDUCT, FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT, PLEASE CONTACT THE OFFICE OF

INSPECTOR GENERAL.


You can telephone:

      The Inspector General's HOTLINE

                 1-800-303-9737



Or you can write:


         Pension Benefit Guaranty Corporation
              Office of Inspector General
                    P.O. Box 34177
            Washington, D.C. 20043-4177
